TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Progress Has Been Made, but Additional
                       Steps Are Needed to Ensure Taxpayer
                         Accounts Are Monitored to Detect
                         Unauthorized Employee Accesses



                                           September 9, 2009

                                Reference Number: 2009-20-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 9, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Made, but Additional Steps
                             Are Needed to Ensure Taxpayer Accounts Are Monitored to Detect
                             Unauthorized Employee Accesses (Audit # 200820020)

 This report presents the results of our review to evaluate compliance by Internal Revenue Service
 (IRS) management and security staffs in reviewing and certifying Integrated Data Retrieval
 System (IDRS) 1 security reports, which are produced online by the IDRS Online Report Services
 (IORS) system, and assess whether corrective actions taken to address our prior audit findings 2
 were effective. This audit was part of the Treasury Inspector General for Tax Administration
 Fiscal Year 2008 Annual Audit Plan and was part of our statutory requirement to annually
 review the adequacy and security of IRS technology.

 Impact on the Taxpayer
 The IRS requires managers of IDRS users to review and respond to IDRS security reports on the
 IORS system that present questionable accesses to the taxpayer accounts. While the national
 averages of certification and timeliness rates have improved, the IRS did not ensure that all IDRS
 business divisions were completing their responsibilities for reviewing and certifying IDRS
 security reports. Until additional improvements are made, the IRS cannot ensure that taxpayer


 1
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
 taxpayer’s account records.
 2
   Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
 Employee Accesses (Reference Number 2006-20-111, dated July 24, 2006).
                    Progress Has Been Made, but Additional Steps Are Needed to
                            Ensure Taxpayer Accounts Are Monitored to
                             Detect Unauthorized Employee Accesses


accounts on its primary tax account system are being properly protected from unauthorized
accesses.

Synopsis
About 50,000 IRS employees access the IDRS to process taxpayer data during the course of their
normal work duties. Managers of IDRS users are required to review and certify IDRS security
reports on the IORS system on a regular basis to ensure that employee accesses to the IDRS are
for valid work reasons. The IRS requires that managers maintain at least a 90 percent
certification rate.
During Fiscal Year 2005, only 54 percent of IDRS security reports were certified. During this
review, we found that 89 percent of IDRS security reports were certified for Fiscal Year 2008.
We attribute this significant improvement to the Cybersecurity organization IDRS Security
Program staff’s actions to improve and enhance the IORS system. The IDRS Security Program
staff corrected prior system problems that were hindering IDRS managers’ ability to access
IDRS security reports. For example, they implemented new systemic features, such as automatic
email messages to remind IDRS managers when certifications are due, a “report certification
due” box on IORS system report screens that displays any reports that have not been certified
and highlights past due reports in red, and weekly reports for distribution by IDRS security
officers that list which IDRS managers have and have not completed certifications.
While the national averages of certification and timeliness rates have improved, more needs to be
done to ensure that all taxpayer accounts are protected from unauthorized access. Of the total
325,475 security reports requiring certification by IDRS managers in Fiscal Year 2008,
36,493 (11 percent) were not reviewed and certified, potentially allowing improper accesses to
go undetected. The lack of reviews for 31,980 of these 36,493 reports can be attributed to
816 IDRS managers who had not met the 90 percent certification rate requirement, which
equates to almost 33 percent of all IDRS managers.
The IRS did not complete all corrective actions recommended in our prior review. Specifically,
the IRS did not implement effective compliance reviews to ensure IDRS business divisions 3
were complying with IDRS security report requirements. The IDRS Security Program staff did
not fully implement this recommendation because they had no means for enforcing IDRS
business divisions to comply with IDRS security report requirements.
We also recommended in our prior review that IDRS managers be held accountable for their
security report responsibilities. The IRS did not implement this recommendation because the



3
 IDRS business divisions are segments of IRS business organizations aligned to facilitate monitoring of taxpayer
account accesses.
                                                                                                                   2
                 Progress Has Been Made, but Additional Steps Are Needed to
                         Ensure Taxpayer Accounts Are Monitored to
                          Detect Unauthorized Employee Accesses


Cybersecurity organization believed action was no longer needed when the national average of
certification rates improved.

Recommendations
We recommended that the Associate Chief Information Officer, Cybersecurity, 1) implement
compliance review procedures for IDRS security officers that are designed to monitor and
enforce IDRS business division compliance with security report responsibilities, 2) clarify what
level of IRS organizational management should be assigned the responsibility for providing a
response identifying corrective actions that are required for certification rates lower than
90 percent, 3) biannually provide a list of IDRS managers who have not met their IDRS security
report responsibilities to the IRS business organization executive responsible for monitoring and
enforcing IDRS business division and manager compliance with IDRS security program policy,
and 4) complete plans to implement an enhancement in the IORS system to capture responses for
IDRS business divisions when corrective actions are required for noncompliance.
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should ensure IRS business organizations identify the executives responsible
for monitoring and enforcing IDRS business division compliance with IDRS security program
policy and providing a response identifying corrective actions for certification rates lower than
90 percent.

Response
IRS management agreed with the recommendations. The Associate Chief Information Officer,
Cybersecurity, will 1) develop and implement compliance review procedures for IDRS security
officers, 2) clarify the responsible level among IRS organizational management for submitting
responses when certification rates are lower than 90 percent, 3) provide, at least biannually, IRS
business organization executives responsible for monitoring and enforcing IDRS security
compliance with a list of IDRS managers who have not met their IDRS security report
responsibilities, and 4) implement an enhancement in the IORS system to capture responses for
IDRS business divisions when corrective actions are required for noncompliance. In addition,
the Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement will issue a jointly signed memorandum reiterating IDRS security program
policy requirements and will identify executives responsible for lower compliance rates.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
Assistant Inspector General for Audit (Security and Information Technology Services), at
(202) 622-8510.

                                                                                                     3
                        Progress Has Been Made, but Additional Steps Are Needed to
                                Ensure Taxpayer Accounts Are Monitored to
                                 Detect Unauthorized Employee Accesses




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Security Report Certification and Timeliness Rates Have Significantly
          Improved .......................................................................................................Page 4
          Not All IDRS Business Divisions Are Complying With Requirements for
          Reviewing Security Reports to Protect Against Unauthorized Employee
          Accesses to Taxpayer Accounts....................................................................Page 6
                    Recommendations 1 through 3:.........................................Page 9

                    Recommendations 4 and 5: ..............................................Page 10


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – IDRS Business Division Security Report Certification
          and Timeliness Rates for Fiscal Year 2008 ..................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 20
       Progress Has Been Made, but Additional Steps Are Needed to
               Ensure Taxpayer Accounts Are Monitored to
                Detect Unauthorized Employee Accesses




                     Abbreviations

IDRS           Integrated Data Retrieval System
IORS           IDRS Online Reports Services
IRS            Internal Revenue Service
                     Progress Has Been Made, but Additional Steps Are Needed to
                             Ensure Taxpayer Accounts Are Monitored to
                              Detect Unauthorized Employee Accesses




                                              Background

The Taxpayer Browsing Protection Act of 1997 1 made it a criminal offense to access or inspect
tax information without proper authorization. This legislation was essentially focused on the
Internal Revenue Service (IRS) to ensure its employees access taxpayer data only for official
purposes. One of the primary systems used by IRS
employees to research and update taxpayer data is the
                                                               It is a Federal crime for IRS
Integrated Data Retrieval System (IDRS). The IDRS          employees to willfully access and
is a mission-critical system that contains sensitive        view taxpayer accounts for other
information such as taxpayers’ names, Social Security      than tax administration purposes.
Numbers, birth dates, addresses, filing statuses,
exemptions, and income.
Because of the sensitive nature of its data, the IDRS routinely generates audit trail 2 information
that can be used to detect potential unauthorized accesses to taxpayer accounts. The IRS refers
to the unauthorized access of taxpayer information as “UNAX” and requires yearly training to be
given to all employees to protect against it. Despite the training and existing security policies,
UNAX violations continue to be an issue at the IRS. An internal IRS study reported that
1,191 UNAX cases had been processed by the IRS and the Treasury Inspector General for Tax
Administration from Fiscal Year 2004 to Fiscal Year 2007.
Prior to November 2003, IDRS security staffs and managers of IDRS users received IDRS audit
trail information in computer-generated paper reports. To reduce the costs of printing and
distributing these reports and to improve the effectiveness of reporting results of management
reviews, the IRS deployed the IDRS Online Reports Services (IORS) system, which is a
web-based application that makes IDRS security reports available electronically to authorized
reviewers.
The IORS system notifies managers of IDRS users by email when IDRS security reports are
available and when responses to reports are due. Managers of IDRS users are required to review
and certify the following security reports on a regular basis to determine that IDRS users are
accessing the IDRS for valid work requirements:
    •    Sensitive Access Report – Issued weekly, this report identifies IRS employees who have
         accessed another employee’s or an employee’s spouse’s tax account.



1
 26 U.S.C.A. Sections 7213, 7213A, 7431 (West Supp. 2003).
2
 An audit trail is a chronological record of system activities that allows for the reconstruction, review, and
examination of a transaction from inception to final results.
                                                                                                                 Page 1
                    Progress Has Been Made, but Additional Steps Are Needed to
                            Ensure Taxpayer Accounts Are Monitored to
                             Detect Unauthorized Employee Accesses



    •   Security Violations Report – Issued weekly, this report identifies attempted user
        transactions that violated specific IDRS security rules.
    •   IDRS Security Profile Report – Issued monthly and quarterly, this report identifies
        employees’ IDRS capabilities.
The IRS Cybersecurity organization is responsible for overseeing compliance with the IORS
system and has direct responsibility over IDRS Security Program staffs located in the IRS
campuses. 3 IRS business organizations 4 are responsible for ensuring their IDRS managers
comply with IORS system procedures, investigate potential security violations, and take
appropriate corrective actions.
In a July 2006 audit report 5 on the IRS’ use of the IORS system, we reported that a majority of
IDRS managers were not reviewing or certifying IDRS security reports produced by the IORS
system. The IRS Cybersecurity organization and IRS business organizations had not sufficiently
emphasized the need for their IDRS managers to review the IDRS security reports produced by
the IORS system. In addition, IDRS managers were not held accountable for reviewing the
IDRS security reports on a regular basis and the level of emphasis varied among the data security
staffs located at the IRS campuses. Further, systemic problems with the IORS system
contributed to the low compliance levels. We recommended that the Associate Chief
Information Officer, Cybersecurity:
    •   Coordinate with the IRS business organizations and place emphasis on the review of
        electronic IDRS security reports using the IORS system.
    •   Conduct periodic compliance reviews to ensure IDRS business units6 carry out their roles
        and responsibilities to review IDRS security reports.
    •   Hire a new contractor to complete development of the next version of the IORS system.
        The systemic weaknesses with the system should be prioritized and addressed within a
        reasonable time period.




3
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  IRS business organizations include the Criminal Investigation, Large and Mid-Size Business,
Small Business/Self-Employed, Tax Exempt and Government Entities, and Wage and Investment Divisions; the
Offices of Appeals and Chief Counsel; the Taxpayer Advocate Service; and the Agency-Wide Shared Services and
Communications and Liaison functions.
5
  Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
Employee Accesses (Reference Number 2006-20-111, dated July 24, 2006).
6
  IDRS business units are segments of IRS business organizations aligned to facilitate monitoring of taxpayer
account accesses.
                                                                                                          Page 2
                 Progress Has Been Made, but Additional Steps Are Needed to
                         Ensure Taxpayer Accounts Are Monitored to
                          Detect Unauthorized Employee Accesses



We also recommended that the Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement:
   •   Ensure managers’ operational review requirements are updated to include a step to
       validate that all IORS system-related reports are certified in a timely manner and to hold
       the managers accountable for meeting their security-related responsibilities.
This review was performed at the Cybersecurity organization office in New Carrollton,
Maryland, during the period October 2008 through February 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                     Progress Has Been Made, but Additional Steps Are Needed to
                             Ensure Taxpayer Accounts Are Monitored to
                              Detect Unauthorized Employee Accesses




                                      Results of Review

Security Report Certification and Timeliness Rates Have Significantly
Improved
About 50,000 IRS employees access the IDRS to process taxpayer data during the course of their
normal work duties. For monitoring accesses to taxpayer accounts, IRS business organizations
are segmented into field or campus units called IDRS business divisions. IDRS users are
organized into IDRS units within the IDRS business divisions. Currently, the IRS has
established 65 IDRS business divisions that oversee a total of 5,667 IDRS units. 7 IRS business
organizations are required to appoint managers responsible for timely reviewing and certifying
IDRS security reports for employees in their IDRS units, and identify a point of contact for
coordinating overall IDRS security activities for each IDRS business division. For the purpose
of monitoring the review and certification of IDRS security reports, the IRS further grouped
IDRS business divisions by the 10 IRS campuses. IDRS security officers from the Cybersecurity
organization are located at each of the 10 campuses to oversee and monitor the IDRS business
divisions affiliated with their campus.
The IRS requires that managers of IDRS units maintain at least a 90 percent certification rate for
their IDRS security reports. In addition, managers must certify weekly IDRS security reports
within 14 calendar days and monthly IDRS security reports within 28 calendar days for the
certifications to be considered as timely.
During this review, we found that the national averages of certification and timeliness rates for
IDRS security reports have significantly improved since our last review. Figure 1 presents a
comparison of the average certification and timeliness rates for the 10 campuses for Fiscal
Year 2005 that were compiled by the Cybersecurity organization IDRS Security Program staff
during our prior review, and the average rates for the 10 campuses for Fiscal Year 2008
compiled by the Cybersecurity organization IDRS Security Program staff during this review.




7
 Although not part of the IRS, the Treasury Inspector General for Tax Administration is included as 1 of the
65 IDRS business units because its employees may require access to the IDRS as part of their job responsibilities.
                                                                                                             Page 4
                   Progress Has Been Made, but Additional Steps Are Needed to
                           Ensure Taxpayer Accounts Are Monitored to
                            Detect Unauthorized Employee Accesses



       Figure 1: IRS Campus Security Report Certification and Timeliness Rates
                                    Certification Rate                       Timeliness Rate
        IRS Campus             Fiscal Year         Fiscal Year         Fiscal Year         Fiscal Year
                                  2005                2008                2005                2008
   1. Andover                       80%                 90%                61%                 78%
   2. Atlanta                       41%                 73%                26%                 60%
   3. Austin                        16%                 74%                 9%                 63%
   4. Brookhaven                    88%                 98%                68%                 92%
   5. Cincinnati                    40%                 85%                23%                 69%
   6. Fresno                        42%                 94%                26%                 82%
   7. Kansas City                   59%                 91%                35%                 80%
   8. Memphis                       33%                 94%                19%                 83%
   9. Ogden                         78%                 97%                55%                 87%
   10. Philadelphia                 38%                 87%                26%                 72%
   Averages                         54%                 89%                37%                 77%
   Source: Cybersecurity organization IDRS Security Program staff. Data were extracted using queries of the
   IORS system.

We attribute the improvements in the certification and timeliness rates to corrections and
enhancements made by the IRS to the IORS system. In response to our prior review
recommendations, the IDRS Security Program staff corrected IORS system problems that had
hindered IDRS managers’ ability to access IDRS security reports and were contributing to low
certification and timeliness rates. In addition, the IDRS Security Program staff implemented
system enhancements that further improved IDRS managers’ compliance with completing their
security report requirements, including:
   •     Automatic email messages to remind IDRS managers that certifications are due.
   •     A “report certification due” box on IORS system report screens that displays any reports
         that have not been certified and highlights past due reports in red.
   •     Actions and Certifications Detailed Reports that list which IDRS managers have and have
         not completed certifications. Campus security officers use this information to send
         weekly notifications to IDRS business unit points of contact for distribution to the
         appropriate IDRS managers who need to complete certifications.




                                                                                                       Page 5
                  Progress Has Been Made, but Additional Steps Are Needed to
                          Ensure Taxpayer Accounts Are Monitored to
                           Detect Unauthorized Employee Accesses



Not All IDRS Business Divisions Are Complying With Requirements
for Reviewing Security Reports to Protect Against Unauthorized
Employee Accesses to Taxpayer Accounts
While the national averages of certification and timeliness rates for IDRS security reports has
significantly improved, with the certification compliance
rate getting close to the 90 percent, more needs to be
done to ensure that all taxpayer accounts are protected              In Fiscal Year 2008,
                                                              36,493 security reports were not
from unauthorized access. The rates for some of the                reviewed and certified,
individual IDRS business divisions did not meet the             potentially allowing improper
certification and timeliness requirements. Of the total        access to taxpayer accounts to
325,475 security reports requiring certification by IDRS                go undetected.
managers in Fiscal Year 2008, 36,493 (11 percent) were
not reviewed and certified, potentially allowing
improper accesses to taxpayer accounts to go undetected. Further analysis of the 36,493 reports
identified that 32 of the 65 IDRS business divisions had certification rates that were lower than
90 percent for Fiscal Year 2008. The lack of reviews for 31,980 of these 36,493 reports can be
attributed to 816 IDRS managers who had not met the 90 percent certification rate requirement,
which equates to 32.7 percent of all IDRS managers. Fifty-seven of the 65 IDRS business
divisions had at least 1 IDRS manager who did not meet the 90 percent certification rate
requirement. Appendix IV presents the certification and timeliness rates for all 65 IDRS
business divisions for Fiscal Year 2008.

Effective compliance reviews were not implemented
IRS policy requires executives of business organizations with IDRS business divisions that do
not have at least a 90 percent certification rate for their IDRS security reports to provide to the
IDRS Security Program staff within 14 calendar days a response that identifies the nature and
date of the actions to be taken to correct any deficiencies associated with the review and
certification of security reports.
Based on the low certification and timeliness rates found during our prior review, we
recommended that the IRS conduct periodic compliance reviews to ensure IDRS business
divisions carried out their IDRS security report responsibilities. During this review, we found
that the IRS had not yet implemented effective compliance reviews for monitoring IDRS
business division compliance with IDRS policy.
The IDRS Security Program staff had taken some steps to implement this recommendation. In
April 2006, they began to generate a quarterly report that listed the certification and timeliness
rates for each of the 10 campuses. The staff shared this report with the IDRS Security Issues
Committee that included representatives from the various IRS business organizations. However,
in mid-2007, the IDRS Security Program staff discontinued providing this quarterly report to the

                                                                                               Page 6
                 Progress Has Been Made, but Additional Steps Are Needed to
                         Ensure Taxpayer Accounts Are Monitored to
                          Detect Unauthorized Employee Accesses



campuses because it was not getting distributed further. The quarterly report was not effective
for informing IDRS business divisions of their certification and timeliness rates because the rates
for individual IDRS business divisions were rolled up to the campus level. In addition, the IDRS
Security Issues Committee members were serving as liaisons for their business organizations and
not as monitors at the IDRS business division level.
In November 2006, the Memphis, Tennessee, Campus IDRS Security Program staff created draft
compliance review procedures, IORS Certification Standard Operating Procedures, for IDRS
security officers. These procedures instructed campus IDRS security officers to monitor report
certifications in the IORS system on a weekly basis and notify IDRS business divisions at their
campuses when report certifications become untimely. To perform this task, campus security
officers used the Actions and Certifications - Detailed Utility Report feature in the IORS system
to determine which IDRS managers had completed certifications and which had not. The
security officers then emailed the reports to the IDRS business divisions’ points of contact, who
in turn distributed them to the appropriate IDRS managers who needed to complete
certifications. Although these procedures were never finalized or formally issued, we found that
IDRS security officers were generally following them and emailed weekly reports to inform
IDRS managers when certifications were overdue.
However, the draft procedures did not instruct the IDRS security officers on what actions to take
when IDRS managers did not complete their responsibilities. Also, the draft procedures did not
instruct IDRS security officers to monitor IDRS business division certification and timeliness
rates to determine those that had a lower than a 90 percent certification rate that required a
response identifying the corrective actions they would take to improve compliance. For the
32 IDRS business divisions with certification rates lower than 90 percent, we found that none
had provided a response identifying corrective actions.
The IDRS Security Program staff had not completed actions to implement compliance review
procedures and was not enforcing the requirement for responses for IDRS business divisions
with a lower than 90 percent certification rate for the following reasons:
   •   IRS business organizations had not identified executives to be responsible for providing
       the response for certification rates lower than 90 percent.
   •   IRS policy did not clarify what level of business organizational management should be
       assigned the responsibility for providing the response when needed.
   •   No mechanism existed to capture responses for noncompliant IDRS business divisions.
       The IDRS Security staff advised us that they intend to implement a mechanism to capture
       responses in the IORS system in December 2009.
   •   The IRS had not implemented any disciplinary mechanisms to help the IDRS Security
       Program staff enforce IDRS business division compliance with IDRS security reports
       requirements.

                                                                                            Page 7
                    Progress Has Been Made, but Additional Steps Are Needed to
                            Ensure Taxpayer Accounts Are Monitored to
                             Detect Unauthorized Employee Accesses



When IDRS managers do not complete certification of security reports in a timely manner, the
IRS has no assurance that taxpayer accounts are being properly protected and potential
unauthorized accesses to taxpayer data by employees are being identified.

Manager accountability was not implemented
Our prior review found that IDRS managers were not being held accountable for their IDRS
security report responsibilities. We recommended that the IRS update the operational review
requirements for its managers to include a step to timely certify all IORS security reports and to
hold managers accountable for meeting their security-related responsibilities.
The National Institute of Standards and Technology Special Publication 800-100 8 describes the
information security governance practices that are critical for ensuring the security of enterprise
information assets. One of these critical practices is that individuals who are responsible for
information security within the agency should be held accountable for their actions or lack of
actions.
To address our recommendation, in Fiscal Year 2007, the IRS updated the self-assessment 9 that
managers complete annually to include a step for IDRS managers to certify that they have
completed their IDRS security report reviews. While the self-assessment may increase
awareness of their IDRS security report responsibilities, it does not hold IDRS managers
accountable if they do not comply with them.
The IRS had also planned to issue a memorandum signed jointly by the Deputy Commissioner
for Operations Support and the Deputy Commissioner for Services and Enforcement to IRS
Commissioners and Chiefs requiring that all IRS business organizations identify and enforce
disciplinary consequences for noncompliance with reviewing and certifying IDRS security
reports. However, in June 2007, the IRS recorded an overall certification rate of 87 percent with
a timeliness rate of 73 percent (up from a certification rate of 54 percent with a timeliness rate of
37 percent in Fiscal Year 2005). Based on the improvement in the national averages of
certification and timeliness rates, the IRS Cybersecurity organization determined that no further
action was needed to address manager accountability. As a result, the aforementioned joint
memorandum was not issued. Consequently, the IRS did not identify or implement disciplinary
consequences for IDRS managers who do not complete review and certification of IDRS security
reports in a timely manner.
While certification and timeliness rates have improved, the rate of improvement has slowed. As
discussed previously, 816 (32.7 percent) of IDRS managers did not meet the 90 percent
certification rate requirement for security reports in Fiscal Year 2008. This contributed to 32 of

8
  Information Security Handbook: A Guide for Managers, published October 2006.
9
  IRS managers annually complete the Self-Assessment Tool for Managers to provide operational review
information pursuant to the Federal Managers’ Financial Integrity Act of 1982, 31 U.S.C. Sections 1105, 1113, 3512
(2000).
                                                                                                          Page 8
                 Progress Has Been Made, but Additional Steps Are Needed to
                         Ensure Taxpayer Accounts Are Monitored to
                          Detect Unauthorized Employee Accesses



65 IDRS business divisions having certification rates lower than 90 percent in Fiscal Year 2008;
however, none of the divisions had provided a response identifying corrective actions. IRS
business organizations had not identified executives to be responsible for monitoring and
enforcing compliance with IDRS security policy and for providing the response identifying
corrective actions for certification rates lower than 90 percent.
Because the IORS system tracks certification and timeliness data, the IDRS Security Program
staff can generate a list of IDRS managers who have not met security report review requirements
and provide this information to IRS business organizations to assist their monitoring and
remediation of noncompliant IDRS managers. Strengthening IDRS managers’ accountability for
timely certification of IORS system security reports will increase the number of IDRS managers
reviewing and certifying IDRS security reports, which will provide assurance that employees are
accessing IDRS tax data for official purposes.

Recommendations
The Associate Chief Information Officer, Cybersecurity, should:
Recommendation 1: Implement compliance review procedures for IDRS security officers
that are designed to monitor and enforce IDRS business division compliance with security report
responsibilities and ensure that responses are obtained when corrective actions are required for
noncompliance.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization has assembled a team to develop compliance review
       procedures for IDRS security officers and will work with the IDRS business divisions to
       finalize and implement these procedures.
Recommendation 2: Clarify what level of IRS business organizational management should
be assigned the responsibility for providing a response identifying corrective actions that are
required for certification rates lower than 90 percent.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization will work with the IDRS business divisions to clarify the
       responsible level among IRS business organizational management and will update IRS
       policy accordingly.
Recommendation 3: Biannually provide a list of IDRS managers who have not met their
IDRS security report responsibilities to the IRS business organization executive responsible for
monitoring and enforcing IDRS business division and manager compliance with IDRS security
program policy.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization will, at least biannually, provide IRS business organization

                                                                                           Page 9
                 Progress Has Been Made, but Additional Steps Are Needed to
                         Ensure Taxpayer Accounts Are Monitored to
                          Detect Unauthorized Employee Accesses



       executives responsible for monitoring and enforcing IDRS security program compliance
       with a list of IDRS managers who have not met their IDRS security report
       responsibilities.
Recommendation 4: Complete plans to implement an enhancement in the IORS system to
capture responses for IDRS business divisions when corrective actions are required for
noncompliance.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       Cybersecurity organization will implement an enhancement in the IORS system to
       capture required responses from IDRS business division management and will update
       IRS policy to require the use of this IORS enhancement.
The Deputy Commissioner for Operations Support and the Deputy Commissioner for Services
and Enforcement should:
Recommendation 5: Ensure IRS business organizations identify the executives responsible
for monitoring and enforcing IDRS business division compliance with IDRS security program
policy and providing a response identifying corrective actions for certification rates lower than
90 percent.
       Management’s Response: The IRS agreed with this recommendation. A meeting
       will be held with IRS executive leadership to disseminate information on IRS
       noncompliance with IDRS security program policy. Executives responsible for providing
       a response when certification rates are lower than 90 percent will be identified. In
       addition, a jointly signed memorandum from the Deputy Commissioner for Operations
       Support and the Deputy Commissioner for Services and Enforcement will be issued to
       division commissioners and functional chiefs reiterating the requirement to review and
       certify IDRS security reports maintained in the IORS system.




                                                                                           Page 10
                   Progress Has Been Made, but Additional Steps Are Needed to
                           Ensure Taxpayer Accounts Are Monitored to
                            Detect Unauthorized Employee Accesses



                                                                                             Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to evaluate compliance by IRS management and
security staffs in reviewing and certifying IDRS 1 security reports, which are produced online by
the IORS system, and assess whether corrective actions taken to address our prior audit findings 2
were effective.
To accomplish our objectives, we:
I.      Determined whether IRS business organizations are reviewing and certifying IDRS
        security reports using the IORS system in compliance with Internal Revenue
        Manual Section 10.8.34.
        A. Determined how the Cybersecurity organization compiles and validates the accuracy
           of the certification and timeliness rate information.
        B. Obtained the most current quarterly certification rate information, including the
           timeliness of the certifications, maintained by the IORS system and distributed
           quarterly by the Cybersecurity organization to IRS business organizations.
        C. Determined whether the Cybersecurity organization obtained written responses from
           executives of business organizations with lower than a 90 percent certification rate in
           accordance with IRS policy.
        D. Determined whether other monitoring or reporting corrective actions had been taken
           and whether they were effective.
II.     Determined whether IRS business organization managers’ operational review
        requirements were updated to include a requirement for timely certification of IORS
        system-related reports as well as consequences for noncompliance, in order to hold
        managers accountable for meeting their security-related responsibilities.
III.    Determined whether the IORS system had been modified to address previously reported
        systemic problems, including system access issues, software problems, and management
        oversight issues.



1
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
2
  Increased Managerial Attention Is Needed to Ensure Taxpayer Accounts Are Monitored to Detect Unauthorized
Employee Accesses (Reference Number 2006-20-111, dated July 24, 2006).
                                                                                                     Page 11
         Progress Has Been Made, but Additional Steps Are Needed to
                 Ensure Taxpayer Accounts Are Monitored to
                  Detect Unauthorized Employee Accesses



A. Reviewed system change documentation to determine the corrections implemented
   and interviewed the IORS Project Manager to determine whether any ongoing
   problems were contributing to noncompliance in reviewing and certifying IORS
   system security reports.
B. Determined whether systemic corrective actions were effective in increasing
   compliance with reviewing and certifying IORS system security reports by
   interviewing IORS system users to solicit their opinions regarding the effectiveness
   of systemic changes made since the time of our last audit.




                                                                                 Page 12
                Progress Has Been Made, but Additional Steps Are Needed to
                        Ensure Taxpayer Accounts Are Monitored to
                         Detect Unauthorized Employee Accesses



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Kent Sagara, Acting Director
Carol Taylor, Audit Manager
Jody Kitazono, Senior Auditor
Louis Lee, Senior Auditor




                                                                                       Page 13
                Progress Has Been Made, but Additional Steps Are Needed to
                        Ensure Taxpayer Accounts Are Monitored to
                         Detect Unauthorized Employee Accesses



                                                                     Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Information Officer OS:CTO
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Cybersecurity Programs and Policies OS:CTO:C:PP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Technology Officer OS:CTO
       Chief Information Officer OS:CTO
       Associate Chief Information Officer, Cybersecurity OS:CTO:C




                                                                           Page 14
    Progress Has Been Made, but Additional Steps Are Needed to
            Ensure Taxpayer Accounts Are Monitored to
             Detect Unauthorized Employee Accesses



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 20
Progress Has Been Made, but Additional Steps Are Needed to
        Ensure Taxpayer Accounts Are Monitored to
         Detect Unauthorized Employee Accesses




                                                      Page 21
Progress Has Been Made, but Additional Steps Are Needed to
        Ensure Taxpayer Accounts Are Monitored to
         Detect Unauthorized Employee Accesses




                                                      Page 22
Progress Has Been Made, but Additional Steps Are Needed to
        Ensure Taxpayer Accounts Are Monitored to
         Detect Unauthorized Employee Accesses




                                                      Page 23
